VAUGHAN & DeMURO
ATTORNEYS AT LAW

Gordon L. Vaughan
David R. DeMuro
Sara Ludke Cook
Ann B. Smith
Alexandria L. Bell

A Partnership of Professional Corporations
111 South Tejon Street, Suite 545
Colorado Springs, CO 80903
TELEPHONE: (719) 578-5500
FACSIMILE: (719) 578-5504

DENVER OFFICE:
720 South Colorado Boulevard
Penthouse, North Tower
Denver, CO 80246
Telephone: (303) 837-9200

February 16, 2021

VIA E-FILING
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
re:

Docket No. 20-1002, Cody Cox v. Don Wilson
Request for Extension of Time to File Response to Petition

Dear Mr. Harris:
I am counsel for respondent in this case. Petitioner filed his petition for a writ of certiorari
on January 19, 2021. According to the online docket, the petition was docketed on January 26, 2021,
and, pursuant to Rule 15.3 of the Rules of the Supreme Court of the United States, a response is
currently due on February 25, 2021. Pursuant to Rule 30.4, respondent respectfully requests that the
time for filing a response be extended by 30 days, to and including March 29, 2021.
This is respondent’s first request for an extension of time to file a response. Good cause
exists for the requested extension. Apart from this case, I am counsel of record in several other
matters that will require me to devote substantial amounts of time in the coming weeks. An
extension of time would better enable preparation of a response that would be most helpful to the
Court.
Counsel for the petitioner, Andrew J. Pincus, has informed me by email that petitioner does
not object to this request.
Sincerely,
VAUGHAN & DeMURO

Gordon L. Vaughan
GLV/cjm

Page 1 of 2

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29, I hereby certify that on this 16th day of February, 2021,
the foregoing request for extension to file response to the petition for writ of certiorari was served
via email on the following counsel:
James F. Scherer, Esq.
MILLER & LAW, P.C.
jfs@millerandlaw.com
Andrew Pincus, Esq.
Charles A. Rothfeld, Esq.
MAYER BROWN LLP
apincus@mayerbrown.com
Crothfeld@mayerbrown.com

s/ Gordon L. Vaughan

Page 2 of 2

